                            ' ,- . "
                          . -            ' - -   . - - _. - .   .. ..




                 MEDICARE PHYSICIAN

                CONSULTATION SERVICES





          SUI.V'Cl
     +r




      ;(t"IIO
t.
     OFFICE OF INSPECTOR  GENERAL­
                AN INSPECTIONS
     OFFICE OF ANALYSIS
                                                                    JUNE 1988




                                . . .--0_

                                                . - '-.' --                     ."




                         OFFICE OF INSPECTOR GENERAL

                                                                                     effec-
                                       Gener (OIG) is to promote theHealth
                                                                     efficiency,
                                                                            and
The mission of the Office of Inspector
                        progr in the Unite States    Deparnt    of
tiveness and integrty of 
                                        detet and prvent frud,
Human Servces                 ths by developing method to
               (fS). It dosstatute in 1976, the Inspctor Genera keepsor
                                                                      both the
waste and abuse. Crated by
                               and curntly inonned about
                                                            progr maagement
Seceta and the Congrsscorrctive
                             fully
                                      action. The OIG perfor its mission by
                                                                            conduct­
problems and reommends
                               insptions with apprxitely 1,200 sta strtegicaly lo­
ing audits, investigations and
cated around the countr.





                   OFFICE OF ANALYSIS AND INSPECTIONS
                                           Analysis and Inspctions
                                                                   (OAl, one of the
 This report is produce by the Office of                                      Ofce of In­
                                     other tWo ar the Office of Audit and the
 major offices within the OIG. The               ar tyicay shor-term stUdies designed to
 vestigations. OAI  conducts  inspetions   which 
                         abuse.

 detenne progr       effectiveness, efficiency and vUerabilty to frud or


                                          1MIS REPORT
                                                                        It was conducte to
 Ths report                    Medcar Physician Consultation Servces.
                                                                  in assurg appropriate

               is entitled "
                                                  produrs
  ascert the effectiveness ofphysician
                              HCFA policies and 

                                       consultation servces prvide
                                                                   to patients in a
  Medicar reimburment for
  hospita settg.


                                               IntortheGenera, Office of Analysis and in-
  The study was prepar by the Regional                 project were the followig peple:
  spctions, New Yolk Region. Parcipatig           on




  frect Staff                                                 Renee Schlesinger,

   Region 11                                                   R..T.. M.P.A.

     Lucille Cop, R.N.
   Region V                                                    Huquarters liaison
     John Traczyk                                              Ma Hogan 

   Region IX                                                   Kan Reynolds

     Neil Merio
                      MEDICARE            PHYSICI.AN
               CONSULTATION                     SERVICES




                                 Richard P. Kussrow
                                 INSPECTOR GENERAL




OAI88-02-050                                               JUNE 198
                                                 ........................................
                   .......... .... ..... ............. ..... .... .......... .... ..... .....
                                                                  ... ................  ......




                           TABLE OF CONlENT





EXECUTIVE SUMMARY

 NTRODUCTION ........ ...... ....... ....... ... .... 


FI   NDI NGS ...

RECOMMENDATIONS .................................................

APPENDIX A.................................................................

APPENDIX B....... ..... ..... .......


APPENDIX C.................................................................


APPENDIX D.................................................................

                                  EXECUTIVE SUMMARY

 PURPOSE

 The purpose of this' study was to ascertin the effectiveness of Health    Ca
                                                                        Financing Ad­
 ministration (HCFA) policies and proedurs in assurng appropriate Medcare reimbur­
 sement for physician consultation services provided in a hospita   settg.

 BACKGROUND

 A significant amount of Medcare dollar are spent    each year for physician     consultations.
 The HCFA reports $404,943, 500 in allowed charges   to physicians ii 1985 for     consult­
 ations perfonned in   hospitals.
 Some of the concerns ariculated by HCFA , Medicare carers and       the GIG. were:

                 Medicare carers ' policies relating to physician consultations appear to
                 var and may be contrbuting to wasteful payments;


                 Physicians may be misinterpretig the   Medcar definition of. a
                 consultation when billing the progr    for services   rendere
                 Some billngs for consultations may actually reflect ongoing definitive
                 care instead of an advisory-type consultative servce; and

                 Some physicians may be misrepresenting the intensity of the servce
                 provided when submitting claims (upcodng).

The traditional understanding of a consultation in the medcal community has ben for
physicians to provide advice to each , other when the patient s condition is beyond the
scope of the treating physician   s expertse. The Medcar progr       has      ognze ths
practice of physicians seeking the opinion and advice of other qualed physicians to as­
sist in the diagnosis and treatment of a patient.

Originally, the only Medicare definition of a consultation was contaed in the Medcar
Canier s Manual (MCM). Recently, in an effort to establish uniormty, HCFA
developed a new system of    nomenclature called the HCF A Common          Procedur Cong
System (HCPCS), which is based upon the Physicians Currnt Predurl Tennnolo

of initial consultations.
Fourth Edition (CPT- 4). This listing also defines a consultation and descbes five levels


Although the CPT- 4 and MCM definitions have some simiarties, there         ar
                                                                            also some
differences , and neither definition addresses some of the aras of concern.
In order to answer some of the concerns expresse by HCFA, Medcar carers and the
OIG, discussions were held with individuals from 15 Medcar carers, 12 Medcaid
State agencies, 12 hospital administrtors and 40 physicians representing varous speial­
ties.

A random sample of 204 inpatient consultation claims were reviewed with their cor­
responding medical record and beneficiar claims   history. The medcal     reor were
reviewed by a    registered nurse to detennne whether a consultation was performd and
whether the level of intensity claimed was accurate according to the CPf- 4   defmition.


MAJOR FINDINGS

There is a substantial amount of excessive payment for physician consultations.

                  The review of records indicated that $92 millon was incortly allowed
                  in 1985, resulting in $73. 6 millon in overpayments. By incorprating
                  our recommended changes, we estimate HCFA could save $73 millon a
                  year in the future.

                  In 157 (77 percent) of the 204 sample cases, the amunt allowed for the
                  consultation was incorrect because the CPf- 4 definition was not met or
                  because the consultation was allowed at an incorrct level of intensity.

There is no clear understanding as to what constitutes a physician consultation that is
reimbursed by Medicar.

                  Fifty- three percent of the physicians were not famliar with the
                  Medicare definition of a physician consultation.

                  The definition of consultation vares among respondents.

                  Distinguishing between concurent car and a     consultation is confusing.


                  Seventy-one percent of the respondents felt that the curnt   five levels
                  of CPT - 4 reimbursement   overlap.

Marked inconsistency and varability exists in the carers ' adistration of physician
consultations.

                  Carers range from having no controls to having very tight controls for
                  both initial and follow-up consultations.

                  The use of follow-up consultations vares with carers.
RECOMMENDATIONS

The HCFA should:



              definitions. 

              Develop and promulgate a definition of a consultation tha wil be
              comprehensive enough to eliminate the present confion between the two


              Take measures to insure that carriers effectively convey the definition to the
              medical community.



              Adopt specifc reimbursement criteria regarding initial andfollow­
              consultations .

              Require all carriers to use CPT   -4   procedue codes for   consultations.


              Groupprocedures codes and collapse the numer of procedures codes for
              both initial and follow- up consultations to "brief' an "comprehensive.
                                   INTRODUCllON

BACKGROUND

A significant amount of Medicar dollars is spent for physician consultations. The
Health Care Financing Administration (HCFA) report $4,943, 500         in allowed charges
to physicians in 1985 for consultations perfonned in the hospital.

The Medicare carers,   HCFA and the OIG have arculated a number of concerns about
the reimburement for physician   consultations, including the following:


                Medicare carers ' policies relating to   physician consultations appear to
                var widely and may be contrbuting to wasteful payments;
                physicians in general may be misintetpreting the Medcar definition of
                a consultation when biling the program for services rendere

                some bilings for consultations may actually reflect ongoing definitive
                care instead of an advisory-typ consultative servce;

                some physicians are being reimbured for certai consultation services
                that should be included in their global fees for surgery;

                 some physicians may be misrepresentig the intensity of the servce
                provided when submitting claims (upcodg);

                 some routine medcal examnationsperfonned prior to surgery
                 (preoperative clearance) may be biled improperly as consultations;

                 some pathologists may be biling   for consultations when the servces
                 provided ar   actually evaluations of   routie labotory studies;

                 some physicians may be billng   for consultations when the services
                 provided are orders for specific procedurs, such as biopsies;

                 prior mediCal services by the same physician to the same patient may be
                 present in a high percentage of cases.



The traditional understanding of a consultation in the medcal community has ben for
physicians to provide advice to each other when the patient s condition is beyond the
scope of the treating physician s expenise. For example, a patient   adtt    to the hospi­

tal by a famly practitioner with a right-sided parsis and lack of sph   may   nee a con­
sultation by a neurologist to give advice to the adtting physician on a defiitive diag­
nosis and tratment , or a patient admitted by an orthopest for hip surgery could
develop chest pains and require a consultation by a cardiologist.

The Medicare  progr has recognized this practice of physicians sekig the opinion and
advice of other qualified physicians to assist in the diagnosis and tratment of a patient
This opinion may be requested by one physician of another from more than 80 speialties
recognized by the American Medical Association (AMA). Orginally, the only Medcar
definition of a consultationwas contained in the Medicare Carer s Manual (MCM) , Sec­
tion 2020D , which defines a consultation as:

       A professional service furnished by a second physician or consultant at the request of
        the attending physician. Such a consultation includes the hitory and exanation of
        the patient as well as the written report, which is funished to the attending physician
       for inclusion in the patient s medical record.

Additionally, Section 4142 of the MCM states:

       The attending physician ma remove himself from the claim and tun the patient over
       to the person who performed a consultation service. In this sitution, the initial ex­
       amination would be a consultation if the requirements in 2020D were met at that
       time.

Recently, in an effort to establish uniformity, HCFA develope a new system
nomenclature called the HCFA Common Procedure Codg System (HCPCS) , based
upon the Physicians Current Procedural Terminolo          Four Edtion (CP-4).        This   list­
ing of descriptive terms and identifying codes for reportng medcal services and proce­
dures performed by physicians, published by the American Medcal Association , also
defines a consultation as:

       Services rendered by a physician whose opinion or advice is requested by a physician
       or other appropriate source for further evaluation andor management of the patient.
       When the consulting physician assumes responsibilty for the contnung care of the
       patient, any subsequent service rendered by him wil cease to be a consultatin.
       consultant is expected to render an opinion and/or adice only. If he subsequently as­
       sumes responsibility for a portion of patient management, he wil be rendering concur­
       rent care. If he ha the case transferred or referred to him, he should then use the
       appropriate codes for services rendered on and subsequent to the date of transfer.

Five levels of initial consultation are recognized by CPT- 4: limited, intermdiate, ex-
tended, comprehensive and complex. 
    These are described in Appendix A. As discussed
later in this report, these descriptions may be overlapping and confusing. The amount
reimbursed for each level ranges from carer to carer. As an example, the reimbure­
ment for an initial consultation by one carer in the study rages from $85.00 for a
limited consultation to $125. 00   for a complex consultation, with the other levels some­
where in between.


Although the CPT- 4 and MCM definitions might appear simiar, the followig char

reflects some subtle differences.





         DIFFERENT FACTORS ADDRESSED BYlHE DEFlNI110NS


                                              CPT -                           MCM
Request by Attending
for a Consultation                                                            Yes
Request by Physician
or Other Source                               Yes

History, Examination Done
& Written Report to be
Completed by Consultant                                                       Yes

Advice or Opinion

from Consultant                               Yes

When Consultant
Assumes Care, Ceases to be
a Consultation                                Yes

Consultation Only When
Attending Removes Himself                                                     Yes

Levels (intensity) of Care
Specified                                     Yes




The following factors ar   not   addressed by either definition:

                 prior patient encounters with the consultat;
                 the time lapse between consultations; and

                 whether the same or new diagnosis crates          a new consultation.
ISSUES

This study set out to answer the following key questions:

                 Do varied definitions of physician consultations and their interpretations
                 contribute to inappropriate Medicare reimbursement and related problems?
                 Do hospital, HCF A andor carrier policies an procedures contribute to
                 inappropriate reimbursement for physician consultations?
                 How effective are existing controls to assure proper reimbursement?

METHODOLOGY

Discussions were held with those who provide the servce and those who reimbure          it
Fifteen carers were contacted by either telephone (8) or in persn (7). Individuals from
their Medicare offces, medical staff and private business depanments were interviewed
to obtain their perceptions. Twelve hospitals were visited, and discussions held with
hospital administrtive staff as well as with 40 physicians reprsenting diferent speal­
ties. Several medical assistants or biling clerks of the physicians intervewed were con­
tacted by telephone.


Medicaid State agencies in the 12 sample States were contacted by telephone to obta in­
fonnation on their physician consultation policies and procedurs. Meetings were also
held with medical society representatives and the Peer Review Organzations (PROs).

A random sample of 204 consultation claims processed by 13 carers (who represent 70
percent of all inpatient consultation charges reported to HCFA' s BMAD system) in 1985
was selected for review. The claims were for consultations provided in 88 hospitas in 12
States (one State has two carers). One of the largest carers in the countr was not in­
cluded in the sample because it was not using HCPCS procedur codes for consultations.
Hospital records and carer Pan B claims histories (all physician services biled
Medicare in 1985) were requested to correspond with each of the 204 claim. The
records were reviewed by a registere nure to detennne whether        a consultation was per­
fonned and whether the level of intensity claimed was    accurte accordig to the CPT-
definition. No determination as to medical necessity was mad as pan of the review.
The Par B claims histories for each of the patients in the sample were reviewed to se if
there were prior, subsequent and same- day services by the physician who biled for the
consultation in the sample.

                                        FINDINGS

There is a substantial amount of excessive payment for Physician Consultations

       The review of records indicated that $92 millon was incorrtly alowed in 1985
       for physician consultations perfonned in the hospita. This resulte in $73. 6 mil­
       lion in overpayments (Appendix B).


The records review indicated the following:

        In 157 of the 204 sample cases, the amount allowed for the consultation was
       incorrct either because the CPT- 4 definition for a consultation was not met,
       or because the consultation was allowed at an incOIt     level of intensity.



                           MEDICAL RECORD ANALYSIS
                            Inpatient Consultation Sample


                                                                 No    Conslt (20)

                                                                 No    Reda (11)


                                                                 No Prom (38)
                                                                 17,


                                                                 Mi8C (137)
                                                                 67,




                In 20 (9. 8 percent) of the 204 sample cases, the CPT- 4    definition of a
                consultation was not met.

      The physicians in 20 cases mentioned above were providing medcal car rather
      than consultative services as defined in the CPT-4. In some of these cases, there
      were no consultation reports in the record, but only documentation of perfonn
      medical proedures such as an electrarogram (EKG)            or bronchoscopy,
    Similarly, claims for consultations by pathologists were actually for interpretation
    of routine laboratory findings. In other cases, the physicians
                                                                        provide a medcal

    service such as emergency car or a history and physical examiation.

               In 137 (67. 2 percent) of 204 sample cases, the documentation failed to
               support the level of intensity that was biled by the consultat.

    Ilustrtive of this is a case where an internist biled for a complex consultation on
    a patient scheduled for a bunionectomy. The documentation
                                                                   in the medcal
    record did not show the required " in- depth evaluation of a crtical problem
    ing unusual knowledge, skill and judgment on the pan of the consultig         reuir­
    physician. " Another case involved a 75- year-old patient
    had a complex hematology consultation biled.
                                                                     adtte
                                                                   for anemia who
                                                    A review of the mecal reord
    revealed a brief note by the hematologist recommnding a bone
                                                                     maw examna­
    tion , which was done and also biled by the consultat on the same day.

    In 36 (17. 6   percent) of the 204 sample cases, the consultation servce was cOlTectly
    claimed; half of these were biled at the lowest (or limite level) and a quaner at
    the comprehensive level.

    In the remaining 11 (5.4 percent) sample cases, the hospitas did not supply
                                                                                     suff­
   cient infonnation for a detennnation to be made concerning the valdity
                                                                                   of the
   consultation claim.


    The sample indicated that 82 percent of the consultats saw the patient more than
   once during the hospital stay. Typically the consultant may have
                                                                     provide the ini­
   tial advice and opinion to the attending, but also contiued to provide car
   throughout the patient s entire hospital stay. In one case, the consultat
                                                                             saw a
   patient daily for the entire 13-   day stay, wrte orders, dictated the discharge sum-
   mar and charged for a consultation for each visit.
d) The   beneficiar history indicated that 26 percent of the physicians in the sample
    had seen and trated the    patient prior to this hospita stay.

   On several occasions the consultant indicated in the mecal reor that patient is
    known to me or grup. " In some instances, the consultat was the adtting
   physician or the physician of record.

    The ary    of procedur codes in the sample shows physicias         biled 99 percent
   consultations for the reimbursement levels; 47 percent for
   26 percent each for limited and complex.
                                                                       comprehensive and
                                    PHYSICIAN CONSULTATIONS
                                     Distribution by Procedure Code
                   Type of Coe




                 Limited




             Intermiae


               Extede


           Co""ehensive



                Cole

                 Dlhe,




                                                                                               100

                                            % of Allinpal.nl. Cosutaon

 rhl8""_                                         S", (..20)                        Un (t1


There is no clear understanding as to what constitutes a Physician Consultation that is
reimbursed by Medicare

           The results of the record review ar not surrising in light of the responses to
           questions about perceived definitions, such as: " What is your understading of the
           Medicare definition of a consultation?"

             Most physicians know only their own trditional      definition.


           Twenty-one of the 40 physician respondents       (53 percnt) were not      famar with
           the Medicare definitions of a physician consultation. Thy           gave vared answers as
           to what they believed to be the definition ranging frm any flIt encounter with a
           patient to a " one shot deal" for advice and opinion. Our sample indicated that 82
           percent of the beneficiares were actually sen mor than once by the consultant
           When asked what factors cause them to request a consultation, 67 percnt of the
          " "                                                   " "




physicians gave as the primar reasons: " advice and opinion, bettr car of
patient, for my expertse, " or " for expertse I don t have. " Although most
physicians gave malpractice as a reason, only 19 percent saw it as the    priar
reason.

 Other respondents use a varety of      definitions.

Some Medicare carers used        the   CPT-   definition, some used the MCM defini­
tion and still others used a combination of both. One carer defined a consult­
ation as " a service rendered by a highly skilled professional advisor whose opinion
or advice is requested by the attending physician in the diagnostic evaluation

and/or treatment of a patient.

While Medicaid definitions vared from State to State, they all reuird a         reuest
for an opinion or advice. Two of the 12 States said the consultat must be       a
specialist; some States used the CPT- definition.

One State s workers compensation agency develope a defmition for a consult­
ation which closely follows CPT   , but also includes the following reuirments:
it must be a service rendered by a specialist; it must seek furer evaluation or
opinion on how to proceed in the management of a patient s illness; the servce
must be diagnostic; and treatment by the consultant cannot be involved.

Most private insurer respondents said their policies often do not reimburse con­
sultations, but when consultations ar a reimbursable servce they use the    CPT-
definition. One said: " A consultation is only for opinion and advice to develop
and recommend treatment.

Almost all respondents, including physicians, distinguished a consultation frm a
referral. Most saw a referral as sending a patient to another physician, usually a
specialist, for treatment rather than advice or opinion. Some felt a referrl only
occurred when the referrng physician surndere car to the consultat Some
felt the first visit would always be a consultation; others thought the  fit
                                                                          visit for a
referral should be considered an initial medical visit

Concurrent car: another area of confusion.



The difference between a consultation and concurnt car also appear to be un­
clear to many. One carer s medical advisor said, " s muddy water! Concurnt
care is asking for a consultant to assist in the management of a patient It s dif­
ficult to accept concurent car without an initial consultation to detennne if con­
currnt car is   appropriate.     Another carer    s medcal advisor descbe a
consultation as a one- time identifiable service, with concurnt car occwrng
when another physician is actually providing tratmnt. Many respondents felt
that concurrent care started after an initial consultation; others felt that the first
       visit should be an initial visit when a second or thir physician is prvidig both
       diagnosis and treatment concurently, usually for a different diagnosis.

  d) The five levels of CPT- 4 reimbursement      ar overlapping.
       All but three carers nationally were using CPT- 4 initial consultation procedur
       codes. Most of the sample carers were allowing physicians to submit claims
       using all five of the levels of initial consultations descbe in the CPT- 4 (Appen­
       dix A), although some were paying at only thee levels.

       Seventy-one percent of the respondents did not lie the curnt five levels of car
       and felt that two or thr levels would be more appropriate. Many physician, car­
       rier and Medicaid respondents felt it was diffcult to decide where one level ends
       and another begins. They also indicated that the definitions of   the levels   ar over­
       lapping, somewhat redundant and create an opportnity for " gamg        the system.


Marked inconsistency and variabilty exists in the carriers ' administration of Physician
Consultations

       Carrers range from having no controls to having very tight contrls     for both
       initial and
       follow-up consultations.

       HCFA does not require any prepayment scrns for physician consultations. Such
       screens are left to each carrer s discretion. The experience in the sample ranged
       from some carrers having no screens and perceiving no problems to one carer
       who allows one initial consultation per physician per year and two follow-up con­
       sultations within 30 days. After that the service beomes a hospita visit and must
       meet concurrent car, screens (see Appendix C).


       The use of follow-up consultations vares with carers.

      The CPT- 4 defines a follow-up consultation as a consultat
                                                               s reevaluation of a
      patient on whom he has previously rendered opinion or advice. It provides for no
      patient management or treatment and descrbes four levels of follow-up consult­
      ations.

      Ten of the sample carers use follow-up     consultation codes and five do not
      Some do not pay for follow-up consultations; others pay for an unlited number.
      When respondents were asked to define a follow-up consultation , their answers
      ranged from " continuation of an initial consultation " to " any consultation after the
      first one.
The beneficiary claims histories revealed that 56 percent of the physicians
                                                       Of that 56 percent, 63
provided medical service subsequent to the hospital stay.
percent provided ongoing medical treatment, 20 percent perfored proedurs
and 16 percent provided follow-up consultations.

Eleven of the 15 sample carers paid     for both diagnostic and therapeutic car in
addition to a consultation.



Some of the sample carers include follow-up consultation codes in their concur­
rent car screens, but most do not

While there was concern that routine preoperative clearance was a problem , the
views of respondents and the results of the medcal review both indicate that ths
is not a significant problem area.   Properative   clearce is a   consultation per­
formed prior to surgery to make sure a patient s condition is stable enough to safe­
ly undergo the surgery. Hospital admnistrtors revealed no hospita policies
requiring routine preoperative consultations. Seven percent of the sample con­
sultations were performed for preoperative clearance and appeard to have sup­
porting documentation. Most respondents said that preoperative consultations,
woen done, were necessar. One record revealed a consultation performed by a
cardiologist in which the surgery was not performed beause of the changes
revealed in the patient s EKG and beause of his unstable condition. Thus, the
consultation prevented surgery from being perfonned that might have com­
promised the patient.

No new information relating to physician consultations has ben disseminated to
carers by HCFA recently. The last issuance was MCM Section 5248 (March
1986), which discusses makng reasonable charge determations for a consult­
ation plus surgery when physicians previously biled global charges for surgery.
All of the carers contacted were aware of this manual section. Most have always
paid for a consultation with surgery and thus did not have to make any changes.
                              RECOMMENDATIONS

The following recommendations were presented to HCF A    in the drft      repo.
      Develop and promulgate a definition of a consultation that will be comprehensive
      enough to eliminate the present confusion between the two definitions. Both
      definitions should be identical and include the following points:

      a. Who may request a consultation?
      b. Should a physical examination of the patient always be reuir?
      c. Is a consultation always for advice and opinion?
      d. Must a consultation be for diagnosis only, or for diagnosis and tratment?
      e. Must a wrtten report always be promulgated?
      f. How should a consultation be distinguished frm a referr?
      g. How should a consultation be distiguished frm concurnt car?
      h.  Should a prior patient/physician relationship remove a patient encounter
      from the realm of a consultation?
      1. What is the time lapse between initial consultations?
      J. Must a consultation be perfonned by a speialist?
      HCFA Comment
      We agree that it would be helpful in administerig the Medcar progr          if the
      Medicare Carrers Manual (MCM) and the CPT - 4 definitions of a physician con­
      sultation were the same or at least more consistent with one another. In view of
      the recent enactment of section 4055(a)(2) of the Omibus Budget Reconcilation
      Act (OBRA) of 1987, calling for the Secretar to develop (in consultation with ap­
      propriate national medcal specialty societies) unifonn defmitions of physicians
      services (including consultations), we intend to contrbute in every way possible to
      the Deparment s completion of that project by July 1 , 1989, as madated by the
      Congress. We also intend to present this issue to the CPT- 4 Edtorial Panel for
      their consideration. We would also point out that we have develope crteria for
      carers to assist them in reviewing claims for clinical pathology consultations.
      (See section 8313. 1(c) of the MCM.


      Take measures to insure that carriers effectively convey the definition to the
      medical community.

      HCF A Comment
      We are in the proess of developing a mandated medcal review scrn for con­
      sultations. More unifonn definitions and reimbursement policy wil be an out­
      growth of the educational work we wil be doing with our carers and they, in
      turn , wil do with the medcal community. We anticipate completig this educa­
      tional effort in early 1989.
    Adopt specific reimbursment criteria regarding initial and follow-up

    consultations.


    HCFA Comment
    We disagree with adopting specific reimbursement criteria regarng initial and
    follow-up consultation. We believe it is within the carer s discretion to develop
    criteria regarding initial and follow-up consultations depending on local prevailing
    practices. Therefore, we plan to limit our immate activity to ensurg that each
    carer follows its existing policy.
4. Require all carriers to use CPT -4 procedure coes for consultations.
    HCF A Comment
    We are reviewing those Medicare carers that ar     stil using local predurs
    codes for physician consultations instead of the CPT- 4   cods. We will permt con­
    tinued use of local codes only if there is a compellng nee

    Support the Omnibus Budget Reconcilation Act (OBRA) of 1986 (Pblic Law
    99- 509) which calls for the collapsing of procedure coes. Collaps the number
    of procedure codes for both initial and follow-up consultations to brief and com­
    prehensive.

    HCFA Comment

    We agree that the collapse of the number of procedurs cods       may be   desirble.

    We are considering this as par of our review of HCPCS cods as       reuir
    OBRA 1986, section 9331(d).
                                            APPENDIX A

LEVELS OF CONSULTATION

    In a        consultation (9060) the physician confines his servce to the
              limited

    examination or evaluation of a single organ system. Ths procedur includes
    documentation of the complaint(s), present ilness, pertnent examnation , review
    of medical data and establishment of a plan of management relating to the
    specific problem. An example might be a dermatological opinion about an un­
    complicated skin lesion.

    An     intermediate        consultation (90605) involves examnation or evaluation of
    an organ system , a parial review of the general history, reommndations and
    preparation of a report. An example would be the evaluation of abdomen for pos­
    sible surgery that does not proceed to surgery.

    An           consultation (90610) involves the evaluation of problems that do not
            extended

    requir a comprehensive   evaluation of the patient as a whole. Ths produr in­
    cludes the documentation of a history of the chief complaint(s), past medcal his­
    tory and pertnent physical examination , review and evaluation of the past medcal
    data establishment of a plan of investigative and/or therapeutic maagement, and
    the prepartion of an appropriate report. For example: the examation of a car­
    diac patient who needs assessment before undergoing a major surgical procedure
    and/or general anesthesia.

         comprehensive          consultation (90620) involves an in-depth evaluation of a patient
    with a problem requirng the development and documentation of               medcal data
    (the chief complaints, present ilness,          famly history, past medcal history, personal
    history, system review and physical examnation, review of al diagnostic tests and
    procedures that have previously been done), the establishment or verication of a
    plan for further investigative and/or therapeutic management and the preparation
    of a report. For example: young person with fever, artis and anemia; or a com­
    prehensive psychiatrc consultation that may include a detaled present ilness his­
    tory, and past history, a mental status examnation , exchange of infortion with
    prima physician or nursing personnel of famly members and other informnts
    and preparation of a report with            recommendations.

         complex          consultation (90630) is an uncommonly performd    servce that involves
    an in-depth evaluation of a critical problem that requirs unusual knowledge, skill
    and judgment on the par of the consulting physician, and the prepartion of a
    report. An example would be acute myocaral infartion with major complica­
    tions. Another example would be a young psychotic adult, unrsponsive to exten­
    sive treatment effort, who is under consideration for residential car.
                                          APPENDIX B


METHODOLOGY FOR ESTIMATING SAVINGS

The varance of the estimate was calculated by the following forula               (for ratio estimates):


                     Variance       t(x-ry)2

                                 = 593. 204

Where x is the amount originally allowed,
                r is the average errr rate observed in the sample (0. 198),
                     y is the amount allowed in errr, and
                     n is the total number of cases in the sample (204).

NOTE:	               Although 11 cases were eliminated from the sample beause we were
                     unable to obtain suffcient records frm the hospitas, these 11 cas
                     were considered in computing the varance to           arve at the most
                     conservative cost-savings estimate.

The standad error of the estimate       was calculated by the following fonnula:


                    Standard error	                                       ance



                                                                     022
Where x is the average amount allowed.

The lower and upper ranges of the 90 percent confidence interval (CI) ar              16. 1   percent
and 23. 5    percent , respectively. Prcision is 18. 7 percent, a reflection of the   varabilty in
the errors   , of the fact that both over and underpayments        were   ma.
Projections were made by applying these percentages to the total allowed charges for in­
                              carers in our sample:
patient consultations for the 13




                                 Estimate = $ 64,89,
                                                $ 52,698,00    =     Lower limit, 90% CI
                                                $ 76, 920,00   =     Upper limit, 90% CI


The total allowed charges for inpatient consultation for those 13 carers            was
$282,420, 700.
These carrers represented 70 percent of all charges for inpatient consultations for   1985.
If we assume that the remaining 30 percent resembles the majorty, prjections of
amounts allowed in error may be:

                            Estimate = $ 92,8,

                                           $ 75,510,00   =    Lower limit, 90 


                                           $110,217, 00 = 
   Upper limit, 90 

                                  APPENDIX C

CARRIER CONTROLS

Carrier A	   Pay for place of service; two levels of car:
                                                     Routie and Comprehensive.

             Claims must have name and addrss of referrg physician and statement

             report must be available. If not , then paid as regular mecal car.
             Comprehensive code requires specialty number. Not all speialties ar
             for comprehensive consultation. Must have at least th
             involved for consultation to be comprehensive. If not,
                                                                          body systems
                                                                        reuced to medcal
                                                                                         paid



             care. More than 2 visits within 60 days, consult is not paid. It is reuced
             to medical car.



Carrier B	   Two consults per physician per patient, per diagnosis per hospita admssion.

Carrier C	   One initial consultation within 30 days. Evidence of prior medical care wil
             reduce payment. Medical visit and consultation on the same day wil be
             denied. The level of care
                                     wil be reduced to the lowest level if code is
             unspecified on claim. Subseuent medcal care is reuce to medcal car.


Carrier D	   NONE , although the second visit after consultation is paid as medcal car.

Carrier E	   ConcuITent care screen for follow-up consultations. Attendings and      specialists:
             they look at diagnosis of specialties and allow five follow-up visits for same
             specialty. For different speialty, allow consult plus 10 follow-up visits.
             90620 and 90630 reuire documentation. Use 5 levels of care and pay at 3
             levels: 9060- 90605, 90610, 90620-9030.

Carrier F	   One per month , not to excee 2 in 3 months. If more, then it is reviewed.
             Allow 7 follow-up visits per hospita stay. After that, consultat assumes
             care or is a referr.

Carrier G	   None specific to consultations , but genera contrls include 2 medical car
             claims for same date; 3 visits in 3 months; mecal car with 3 days of
             surgery .

Carrier H	   One inpatient consultation per 30 days.

Carrier I	   Wil suspend consult within 3 days of comprehensive visit or more than I
             consultation claim in 30 days. No inpatient consult by surgeon if surgery    done.
             Follow-up consultation visits paid as medcal visits.

Carrier J	   90630 must have attachment; more     than 1 hospita    consultation with same
             specialty in 1 month is not paid.
Carrier K	   I) Routine hospita visits ar not paid on sam day as consultation;
             2) Surgery with consultation within 7 days is not paid;
             3) Initial offce is not paid on sam day as consultation;
             4) Radiology is not paid when done with radiological
             5) Level of service is reuced if second consultation is
                                                                       prur;
                                                                       do  within 60 days.


Carrier L	   I) Suspend concurrnt car;
             2) Multiple consultations within 3 months;

             3) After 10 follow-up visits, visit is reuced to mecal    car.

Carrier M	   I) One initial consultation per year per patient;
             2) Follow-up consultation only in hospita   andlte    to 2 per 30 days.


Carrier N	   One initial consultation plus 2 follow-up visits. The four   hits the
             concurnt car screens.

Carrier 0	   None now. They are looking to downcode      af fit initial consultation.
                                     APPENDIX D

HCFA COMMENTS ON METHODOLOGY

We are concerned that the subject study might be flawed beause it is designed to focus
on physician consultations perfonned in hospitas, while the use of the nine CP- 4 cods
for initial and follow-up consultations referr to in the study is not restrcte to the
hospital setting. Accordng to the American Medcal Association, these nie cods may
also be used for consultations furished   in a physician   s office.

Another concern is that the sampling methodology is not descbe in enough deta so
that it can be detennned whether the 204 cases from 13 carers is a vald sample since
the universe is not indicated. Also the projection of a $73. 6 millon overpaymnt based
on such a small sample seems   questionable.

We also ar concerned about the qualification of the reviewer who perfonn the OIG
study because a physician was not on the review team. We question whether a nur
qualified to say what level of consultation was perfonn.

In the 20 cases in which services provided did not met the CP- 4 defition of consult­
ation, the claiming of these costs as savings may be questionable as the servces may be
reimbursable under other CPT -4 codes.



Finally, we note no attempt was made to represent the review fidings to the respetive
carer staffs to obtan their reaction/comments to these fmdings. It might be that the
reviewers ' decisions may have ben questionable with respct to some of the clais
reviewed.


OIG RESPONSE

       It is tre that consultations ar perfonned in many settgs, but the largest
       porton of the charges (about 74 percent, according to carer reportg thugh
       BMAD) ar                                    In conducting ths study, we
                    perfonned in inpatient hospitas.
       matched all of the Par B sample claims for consultations to Par A hospitazation
       records, thereby restrcting our review to those consultations      perfonn in an in­

       settings only.
       patient hospita. All moneta projections ar based on that porton of the tota al­
       lowed charges which can be attrbuted to consultations           perfor
                                                                     in inpatient




       The 204 cases that make up the sample for this study were selected at radom frm
       the BMA beneficiar fie, based on the termal digits of the mCNs. Ths
       method is the same method that HCFA uses to create the BMA sample and
       varous other samples used by its Bureau of Data Management and Strtegy and
-'I




      the Offce of the Actuar. The validity of a projection is not dependent on the size
      of the sample, but rather on the method of selectig cass and the inerent vara­
      tion of the data being sampled. In keeping with ths thing, we selecte a strct
      random sample and established   confidence intervals for al   our point estites.

      We agree, however, that the tota amount of allowed charges for consultations in
      inpatient hospitals (the base on which all projections wer made) should be in­
      cluded in Appendix B.    Although this tota can be calculate from the infontion
      given in the appendix, projections ar easier to understad. We have amende
      the appendix according to your suggestion.


      We are satisfied that the use of a Registere Nure for the purse of ths case
      review , to determne the level of a consultation, was apprpriate. Certy, if at­
      tempts had been made to make judgments as to medcal necessity, we would have
      arnged for the   physician support


      In those cases where another service (rather than a consultation) should have
      ben biled, we adjusted the potential savings by the alowed amunt for the other
      service. In all cases, we used the reasonable charge for the corrt service for the
      locality and specialty indicated on the original clai to mae the adjustmnt. In
       some cases, the adjusted amount was actually higher than that biled for the con­
       sultation. The composite effect, however, was a net overayment, which resulte
      in our projected savings.

